No. 21-328

In the Supreme Court of the United States
ROBYN MORGAN, on Behalf of Herself and All Others Similarly Situated,
Petitioner,
v.
SUNDANCE, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for the
Petitioner contains 2,977 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 15, 2021

Leah M. Nicholls
Public Justice, P.C.
1620 L Street NW, Suite 630
Washington, D.C. 20036

